OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BENIN’S
IMPLEMENTATION OF THE
PRESIDENT’S MALARIA
INITIATIVE
AUDIT REPORT NO. 7-680-11-004-P
FEBRUARY 14, 2011




DAKAR, SENEGAL

Office of Inspector General


February 14, 2011

MEMORANDUM

TO:    	       USAID/Benin Mission Director, Kevin Armstrong

FROM: 	        Regional Inspector General/Dakar, Gerard Custer /s/

SUBJECT:	      Audit of USAID/Benin’s Implementation of the President’s Malaria Initiative
               (Report Number 7-680-11-004-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 13 recommendations. Based on actions taken by the mission and
supporting documentation provided, final action has been taken on Recommendations 8 and 9
and management decisions have been reached on Recommendations 1, 2, 3, 4, 5, 6, 7, 10, 11,
12, and 13. Please provide the Audit Performance and Compliance Division in the USAID
Office of the Chief Financial Officer with the necessary documentation to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5

     Partner Provided Inconsistent, Unreliable Data on Spraying ...................................... 5

     Health Facilities Did Not Distribute, Store, or Dispose of Malaria
     Commodities Adequately ............................................................................................ 7

     Partner Did Not Track or Manage Inventory Effectively ............................................ 10

     Bed Nets Were Missing, Diverted, and Sold for Profit .............................................. 12

     Health Ministry’s Disciplinary Action Against Hospital Deprived
     Beneficiaries of Bed Nets and Drugs ........................................................................ 14 


     Some Main PMI Indicators Were Not Included in Monitoring Plans.......................... 15 


Evaluation of Management Comments....................................................................... 17 


Appendix I – Scope and Methodology ........................................................................ 19 


Appendix II – Management Comments ....................................................................... 21 




  Abbreviations

  The following abbreviations appear in this report:

  ACTs       Artemisinin-based Combination Therapy Treatments
  ADS        Automated Directives System
  COTR       Contracting Officer’s Technical Representative
  FY         Fiscal Year
  IRS        Indoor Residual Spraying with Insecticides
  ITNs       Insecticide-Treated Bed Nets
  IPTps      Intermittent Preventive Treatments for Malaria in Pregnancy
  MOH        Ministry of Health
  PMP        Performance Management Plan
  PSI        Population Services International
  PMI        President’s Malaria Initiative
  RIG        Regional Inspector General
  RTI        Research Triangle Institute International
  SPS        Strengthening Pharmaceutical Systems
  SP         Sulfadoxine-Pyrimethamine
SUMMARY OF RESULTS 

Malaria is endemic in Benin and is a major cause of morbidity and mortality. The disease
reportedly accounts for 40 percent of outpatient consultations, 25 percent of all hospital
admissions, and about 32 percent of deaths of children under 5. With 30 percent of the
population living in poverty and a per capita annual income of only $530, Benin struggles to
cope with the strain that malaria places on the country’s economic development, as well as on
public health. According to the World Bank, households in Benin spend approximately one
quarter of their annual income on the treatment and prevention of malaria.

Benin is one of 15 countries1 benefiting from the President’s Malaria Initiative (PMI), a 5-year,
$1.2 billion U.S. Government initiative led by USAID and implemented with the Centers for
Disease Control and Prevention. PMI aims to scale up malaria prevention and treatment
interventions rapidly in high-burden countries in sub-Saharan Africa to reduce malaria-related
mortality in each by 50 percent. This goal will be achieved by reaching 85 percent coverage of
the most vulnerable groups—children under 5 and pregnant women—with proven preventive
and therapeutic interventions, including artemisinin-based combination therapy treatments
(ACTs), insecticide-treated bed nets (ITNs), intermittent preventive treatments for malaria in
pregnancy (IPTps), and indoor residual spraying with insecticides (IRS).

USAID/Benin’s fiscal year (FY) 2008, 2009, and 2010 funding for PMI totaled $13.9 million,
$13.8 million, and $21 million respectively, of which 44 percent was designated for the purchase
of commodities. The mission expended $9.6 million during FY 2009 and $16.2 million during FY
2010 for PMI activities. During this period, the mission worked to implement these activities
through cooperative agreements and task orders with about 13 prime partners and dozens of
subpartners. USAID’s Regional Inspector General (RIG)/Dakar selected for audit the four
partners and programs shown in the table on the following page.

The objective of the audit was to determine whether USAID/Benin’s President’s Malaria Initiative
program was achieving its main goals of preventing and treating malaria.

The audit determined that the program was partially achieving its goals of preventing and
treating malaria through purchasing and distributing bed nets and performing indoor residual
spraying.

USAID/Benin distributed 834,000 ACTs, all of which were purchased in a prior year, exceeding
its target of distributing 479,000 treatments during FY 2009. The mission explained that
although a large quantity of ACTs had been distributed to the Government of Benin’s Ministry of
Health (MOH) in FY 2008, the government failed to redistribute these ACTs, which remained in
a warehouse, nearing expiration. Therefore, to ensure that ACTs at risk of expiration reached
beneficiaries, the mission assisted the MOH in developing and implementing a distribution plan,
including distributing treatments to the private sector and offering community outreach sessions
on treating malaria.



1
Countries include Angola, Benin, Ethiopia, Ghana, Kenya, Liberia, Madagascar, Malawi, Mali,
Mozambique, Rwanda, Senegal, Tanzania, Uganda, and Zambia.



                                              1

                                             Audited Programs

                                                                                  Agreement/Task Order
    Implementing
                                                 Program                           Amount
    Partner                                                                                    Dates
                                                                                  ($ million)
                              The DELIVER program procures bed nets,
                              ACTs, sulfadoxine-pyrimethamine (SP) for              9.8       4/2008–
    John Snow Inc.            pregnant women, rapid diagnostic tests, severe      (through
                                                                                   9/2010)
                                                                                              9/2015
                              malaria treatment kits, microscopes and
                              reagents and transports them to health facilities
    Research Triangle                                                               7.7
                              The IRS program        sprays   households     in               1/2008–
    Institute International                                                       (through
                              selected areas                                       9/2010)
                                                                                              9/2015
    (RTI)
                              The ITN program transports ITNs from health
                              depots to health facilities; procures and
    Population Services       distributes ITNs through the private sector; and                7/2008–
                                                                                    3.2
    International (PSI)       provides malaria-related information, education,                12/2010
                              communication,        and      behavior-change
                              communication services
                              The Strengthening Pharmaceutical Systems
                              (SPS) program trains and provides technical
                              assistance to the National Malaria Control
    Management                                                                                9/2008–
                              Program, health district commodity managers,          1.6
    Sciences for Health                                                                       1/2011
                              and the Central Medical Store’s staff on
                              forecasting, managing supply, and tracking and
                              storing commodities


Concerning bed nets, the mission did not purchase or distribute as many bed nets as intended.
The mission explained that only 835,000 of the planned 1,262,000 nets were purchased in
FY 2009 because another donor purchased 475,000 bed nets for the MOH and the additional
bed nets were not ordered to avoid a surplus larger than the storage capacity in the country.

As for indoor spraying, the mission reportedly sprayed 156,223 structures, exceeding its target
of 142,184. However, the mechanics and timing of reporting and confusion over the definitions
used for houses, structures, and family members raised questions concerning the reliability of
reported data. Accordingly, the audit could not reach any conclusions on the spraying results.

Nonetheless, the activities contributed to the goals of the PMI program in ways not measured by
the indicators. For example, the DELIVER program was effective in implementing the interim
distribution plan that provided millions of dollars worth of commodities directly to health facilities
with minimal delay after the commodities arrived at the port. The IRS program performed
entomological monitoring to assess the distribution and seasonality of mosquitoes, as well as
their susceptibility to insecticides. Finally, the SPS program completed the first end-user
verification survey in the country and took the first steps toward making the pharmaceutical
sector more effective and efficient with modern reporting and recording of data.

Notwithstanding the achievements highlighted above, the audit found that:

     A partner provided inconsistent, unreliable data on spraying (page 5).




                                                     2

	 Health facilities did not distribute, store, or dispose of malaria commodities adequately
   (page 7).

	 A partner did not track or manage inventory effectively (page 10).

	 Bed nets were missing, diverted, and sold for profit (page 12).

	 The Ministry of Health’s disciplinary action against one hospital deprived beneficiaries of bed
   nets and drugs (page 14).

	 Some important PMI indicators were not included in monitoring plans (page 15).

The mission has reported to the Office of Inspector General’s Office of Investigations the
potential acts of fraud related to missing and diverted bed nets and bed nets sold for profit.

The report recommends that USAID/Benin:

1. 	 Identify alternative ways in which the spray operators can tally results (page 7).

2. 	Formulate clear definitions of terms and implement internal controls to ensure that
    consistent terminology is used in gathering and reporting data on indoor residual spraying
    with insecticide (page 7).

3. 	Develop and implement procedures for periodic validation of insecticide-spraying data
    through spot checks (page 7).

4. 	 Strengthen controls to ensure that (1) facilities’ drug inventories and drug consumption are
     verified before drug requests are approved and delivered and (2) mechanisms are in place
     to track drugs that are out of stock or will be out of stock to ensure timely replacement.
     (page 10).

5. 	 Work through the Ministry of Health to take the appropriate steps to strengthen controls to
     ensure the proper storage of antimalarial drugs at all facilities (page 10).

6. 	Communicate to the Ministry of Health the need to implement a plan to destroy expired
    drugs, and a plan to store, pick up, and destroy drugs as they expire (page 10).

7. 	 Require RTI to improve its inventory tracking process and to conduct training on inventory
     management (page 12).

8. 	 Require RTI to distribute the nets in its warehouse (page 12).

9. 	 Increase site visits by its health team and develop a site visit template (page 14).

10. Document and communicate problems associated with bed nets (page 14).

11. Work with the Ministry of Health to develop a strategy for reinstating the Abomey regional
    hospital into the ACT treatments distribution network (page 15).

12. Update its performance management plan to include important malaria indicators (page 16).



                                                3

13. Update its documents to require partner reporting on relevant malaria indicators and other
    performance measures (page 16).

Detailed findings appear in the following section.   The audit’s scope and methodology are
described in Appendix I.

USAID/Benin, whose comments are included in their entirety in Appendix II, agreed with all of
our recommendations. Based on actions taken by the mission and supporting documentation
provided, final action has been taken on Recommendations 8 and 9; and management
decisions have been reached on Recommendations 1, 2, 3, 4, 5, 6, 7, 10, 11, 12, and 13. Our
evaluation of management comments appears on page 17.




                                            4

AUDIT FINDINGS 

Partner Provided Inconsistent,
Unreliable Data on Spraying
According to USAID’s Automated Directives System (ADS) Chapter 203, “Assessing and
Learning,” performance data should meet data quality standards, including standards for
reliability and precision (i.e., data should be sufficiently precise to present a fair picture of
performance), and missions must take steps to ensure that submitted data are reasonably
accurate and adequately represent the intended result.2 In addition, the Government
Accountability Office’s (GAO’s) publication, Standards for Internal Control in the Federal
Government,3 includes among control activities common to all agencies the accurate and timely
recording of transactions and other significant events.          The publication indicates that
transactions and other significant events should be clearly documented with readily available
documentation.

The audit found that the spray data collected and reported for one of PMI’s main indicators
(number of houses sprayed with IRS) were inconsistent, unreliable, and extremely difficult to
verify because (1) the physical nature of the spray activity inhibits accurate record keeping and
(2) definitions used to define areas sprayed and people benefiting were unclear.

First, physical limitations complicate record keeping. Spray operators find it difficult to manage
the spray activities and collect data simultaneously because spraying is a physically demanding
task and because operators are not allowed to remove any of their protective equipment while in
the field to record data. Consequently, spray operators tended to record the number of
structures sprayed or the number of people protected not at the time of spray, but at the end of
the day. Of the two spray operators interviewed, neither had filled out his tracking sheet; one
was waiting to do so at the end of day, and one was tracking data on a scrap piece of paper,
intending to transfer the information to the official form later.

Second, there is confusion about the terms used to measure and record areas sprayed. At the
beginning of the program, the mission tracked results for the number of houses sprayed.
However, the term “houses” was interpreted differently by many people and caused confusion;
therefore, the mission and the implementing partner, RTI, changed from counting “houses” to
counting “structures.” While RTI and the mission consider these terms synonymous and the
change a simplification, because both RTI and the mission also provide data on “rooms” and
“households” in their reports, the change in terminology caused even more confusion in
interpreting and recording reported results.

For example, to verify the operators’ data, the audit team visited one residence in the commune
of Adjohoun. There was some confusion about the number of structures sprayed and the
number of people who lived there. While the spray operator reported that four structures had
been sprayed, thus protecting 15 people, the head of household stated that 25 people lived in
those four structures.


2
    ADS 203.3.5.1, “Data Quality Standards.”
3
    GAO/AIMD-00-21.3.1 (11/99), p.15.


                                               5

Collecting results for this indicator may be complicated in PMI countries because of the terms
used. Generally, according to Malaria Indicator Surveys:

	 A structure is a freestanding building that can have one or more rooms for residential or
   commercial use. Residential structures can have one or more dwelling units (e.g., a single
   house or an apartment building). Where one household inhabits several small dwellings, as
   in a rural area, all the dwellings together, whether they are fenced in or not, constitute a
   structure.

	 A household consists of a person or a group of related or unrelated persons who live
   together in the same dwelling unit, acknowledge one adult male or female as the head of the
   household, share the same housekeeping arrangements, and are considered to constitute
   one unit. A group of people may live together in the same house, but if each person has
   separate eating arrangements, each person should be counted as a separate, one-person
   household. Collective living arrangements—e.g., army camps, boarding schools, or
   prisons—are not considered households.

These terms are specifically defined for malaria activities under PMI. Yet spray operators,
partners, and mission staff sometimes confused them and used the terms “structures,” “rooms,”
“houses,” and “households” interchangeably, as noted below:

	 In 2008, RTI reported in its December 2008 End of Spray Report 142,814 structures and
   388,455 rooms sprayed. For the same period, USAID reported 142,814 structures in its
   FY 2010 malaria operational plan and 388,455 structures in its FY 2009 malaria operational
   plan.

	 In 2009, RTI reported a target of 151,783 households in its work plan, but classified those as
   structures in its End of Spray Report. For FY 2009, USAID reported a target of 141,154
   households in the malaria operational plan and 142,184 houses in its performance
   management plan (PMP).

	 For FY 2009, USAID reported 156,223 houses sprayed in its PMP, whereas RTI’s End of
   Spray Reports recorded 156,233 structures sprayed.

	 In its work plans, RTI set targets for each spray round in terms of the number of households
   sprayed. However, in its End of Spray Reports, RTI reported results for the number of
   structures sprayed, instead of households. USAID reported results in its annual program
   report based on houses sprayed.

All of these discrepancies occurred because RTI lacked internal controls to ensure proper
collection and reporting of results. The mission should implement, in coordination with RTI,
internal controls including periodic validation of the integrity of the collected data through spot
checks. Periodic verification of reported results helps ensure that consistent and reliable data
are collected for reporting and management decision making.

In addition, according to a USAID mission official, the data collection process is complicated by
cultural factors. USAID/Benin’s January 2010 data quality assessment documented some of
the issues described above and highlighted cultural factors that have been found to affect data
accuracy—namely, the tendency to underreport or overreport the number of family members.
Some Beninese people underreport the number of family members for fear that counting them



                                              6

may bring about death, while some polygamous families overreport family members by counting
the husband multiple times.

Without internal controls to confirm that reported results were (1) valid, (2) supported, and (3)
accurately summarized before they were reported to the mission, results were inconsistent and
undocumented. Moreover, the lack of clearly defined terms used in indicators on which data
were collected compromised data quality and made monitoring and evaluating program
performance difficult.

RTI is aware of some of these problems and has provided responses to several data quality
recommendations made following the 2010 data quality assessment. Despite awareness of the
problems and actions taken to eliminate them, RTI and USAID agree that more work needs to
be done to improve data quality, which is particularly important to support management
decisions and to manage for results. Therefore, we make the following recommendations:

      Recommendation 1. We recommend that USAID/Benin, in conjunction with Research
      Triangle Institute, identify alternative ways in which spray operators can tally results.

      Recommendation 2. We recommend that USAID/Benin, in consultation with Research
      Triangle Institute, formulate clear definitions of terms and implement internal controls to
      ensure that consistent terminology is used in gathering and reporting data on indoor
      residual spraying with insecticide. 
 
      Recommendation 3. We recommend that USAID/Benin develop and implement
      procedures to validate insecticide-spraying data periodically through spot checks.

Health Facilities Did Not Distribute,
Store, or Dispose of Malaria
Commodities Adequately
ADS Chapter 596, “Management’s Responsibility for Internal Control,” requires managers and
staff to implement internal controls to safeguard assets against waste, loss, unauthorized use,
and misappropriation.4 In addition, GAO’s publication Standards for Internal Control in the
Federal Government, pages 14 and 15, states that an agency needs to establish physical
controls to safeguard vulnerable assets. The publication also states that transactions should be
recorded promptly to maintain their relevance and value to management in controlling
operations and making decisions.

Although some health facilities stored commodities with proper controls, maintained current and
accurate records, and provided proper care to clients, during visits to health facilities the
auditors noted problems with the storage and distribution of PMI-funded antimalarial drugs.
Specifically, the auditors found that controls over antimalarial drugs were inadequate, storage
rooms were sometimes disorganized, storage temperatures likely exceeded established limits,
expired drugs and bed net bags were not properly destroyed, the supply of bed nets was
uneven among facilities, and stock-outs of important antimalarial drugs occurred frequently, as
described below.



4
    ADS 596.3.1, “Establishing Internal Controls.”


                                                     7

Inadequate Controls Over Antimalarial Drugs. Three of the 11 health centers visited were
involved in improper distribution and sale of antimalarial medicines. For example, a health
facility in Dassa had utilized its supply of drugs faster than projected. Based on calculations
made by the National Malaria Control Program, the health facility’s supply of drugs should have
lasted 9 months, but the health facility had depleted its supply in only 2 months. The facility
manager stated that drugs were provided to the local health facilities on demand without
verifying that the demands were reasonable.

At a health center in Kpingni, the auditors were unable to reconcile the inventory records with
the available stock. The discrepancy amounted to about 450 doses of antimalarial drugs.
Further examination of the center’s records revealed the following:

	 The center issued multiple doses of antimalarial medicines to several individuals. The
   pharmacist explained that medicines were often issued to one family member to distribute to
   the entire family, even without ever examining, diagnosing, or providing a proper
   prescription for any of the family members.

	 The pharmacist wrote himself a receipt for several doses of ACTs, which he explained were
   to be distributed to people he knew when needed.

	 The number of treatments prescribed in the daily patient log for September did not
   correspond to the number of patients seen. According to the log, 8 patients tested positive
   for malaria, but the center dispensed 85 treatments instead of 8. The pharmacist did not
   have an explanation.

Inadequate Commodity Storage Conditions. Despite PSI’s efforts to equip health centers to
handle the stock they receive, the physical conditions of some storage rooms were not always
adequate. At a health facility in Comé, the PMI-funded drugs were kept in a room that could not
be locked. Moreover, other pharmaceutical commodities, such as saline bags, were stacked
haphazardly directly on floors, and boxes were torn and damaged.

The Food and Drug Administration states that Coartem, a type of antimalarial drug commonly
distributed by USAID in Benin, requires storage at room temperature or at temperatures not to
exceed 30 degrees Celsius. At 8 of the 11 health facilities visited, storage temperatures
observed most likely exceeded the established limits because (1) the average high temperature
in Benin for 8 months out of the year was 30 degrees or higher and (2) these eight facilities had
no thermometers or air-conditioners to monitor or modify the storage temperature. Therefore, it
appears likely that commodities were exposed regularly to less-than-ideal storage temperatures.

Extended storage in poor conditions can lead to reduced efficacy and shelf life of PMI-funded
commodities and other pharmaceutical supplies. Items that are improperly stored and exposed
to temperatures that exceed the recommended limits may be ineffective or even harmful to
patients.

Improper Disposal of Expired Drugs and Bed Net Bags. One health facility in Abomey had
several boxes of expired drugs and discarded bed net bags that had been awaiting proper
disposal for over a year. The Ministry of Health has a waste management policy, but barriers to
implementing it included lack of money for incinerators, transportation, and per diem for the
personnel involved. There is no plan for disposing of the expired drugs and bed net bags.
Consequently, drugs pile up in unrestricted areas, as shown on the following page.



                                             8

   Expired drugs awaiting proper disposal at Abomey Regional Hospital. (Photo by RIG/Dakar,
   September 30, 2010)

Without a workable policy and a plan to manage and dispose of expired drugs, more drugs will
accumulate, and the facilities may take it upon themselves to dispose of the drugs, leading to
other risks and hazards to the environment. Also, pilfered drugs from these stockpiles may be
diverted to the market for resale and misuse, or may come into the hands of scavengers and
children. Regularly disposing of these items would provide additional shelf space and eliminate
the possibility of misusing them.

Uneven Supply of Nets at Health Facilities. Despite the National Malaria Control Program’s
best efforts to estimate the needs of the people, some health facilities received a surplus of
nets, yet others experienced shortages. For example, the Thio Health Center had over 400 nets
in stock, of which 200 were from the October 2009 distribution. Even though the health facility
was unable to distribute all the nets it received in 2009, it received an additional 281 nets in
August 2010. A review of this health center’s inventory records also showed that 192 nets were
missing. The pharmacist did not have an explanation for the discrepancy.

Frequent Stock-Outs of Antimalarial Drugs. Five of 11 facilities reported stock-outs of ACTs,
sulfadoxine-pyrimethamine (SP) for pregnant women, or Severe Malaria Kits, which are used to
treat emergency malaria cases. Of the 11 health facilities visited, 5 either were out of one or
more commodities or had experienced a stock-out during the past 60 days. Staff at two of the
facilities stated that when they do not have ACT or SP in stock, they prescribe quinine (reserved
for severe malaria cases only), even for simple malaria infections. This dangerous practice
could lead to decreased antimalarial efficacy of this life-saving drug for severe malaria cases
and potential long-term and permanent physical harm to individuals infected with malaria.
Because of the unavailability of ACTs, patients have no choice but to wait or to rely on
substitutes that may result in less effective treatment.




                                             9

All of these conditions existed because of a lack of adequate monitoring by USAID partners and
the Ministry of Health. For example, the partners responsible for developing the inventory
distribution and storage systems traveled to facility sites only a few times a year. Whether the
Ministry of Health conducted monitoring of its health facilities’ malaria-related activities was
unclear.

The lack of oversight and follow-up created an environment in which commodities may be
handled or stored improperly, commodities may be wasted and misused, and health facilities
lack the ability to meet the demands of local beneficiaries. These situations could prevent the
mission from meeting its PMI goals. To correct these problems, we are making the following
recommendations:

   Recommendation 4. We recommend that USAID/Benin, through the Ministry of Health,
   strengthen controls to ensure that (1) facilities’ drug inventories and drug consumption
   are verified before drug requests are approved and delivered and (2) mechanisms are in
   place to track drugs that are out of stock or will be out of stock to ensure timely
   replacement.

   Recommendation 5. We recommend that USAID/Benin, through the Ministry of Health,
   take the appropriate steps to strengthen controls to ensure the proper storage of
   antimalarial drugs at all facilities.

   Recommendation 6. We recommend that USAID/Benin communicate to the Ministry of
   Health the need to (1) implement a plan to destroy the expired drugs currently in
   storage, and (2) implement and effectively communicate to all affected health facilities a
   procedure for storage, pickup, and destruction of expired drugs.

Partner Did Not Track or Manage
Inventory Effectively
ADS 596.3.1, “Establishing Internal Controls,” requires managers and staff to implement internal
controls to safeguard assets against waste, loss, unauthorized use, and misappropriation. In
addition, GAO’s publication Standards for Internal Control in the Federal Government, pages 14
and 15, states that an agency needs to establish physical control to safeguard vulnerable
assets. The publication also states that transactions should be recorded promptly to maintain
their relevance and value to management in controlling operations and making decisions.

Despite these requirements, RTI’s inventory records for bed nets, insecticides, and other
commodities were disorganized and inconsistent. According to RTI staff, the weaknesses in
inventory records noted below have existed for some time.

Year-to-year records did not accurately carry over inventory. In 2008, RTI received 15,993 bed
nets from the Ministry of Health to distribute to flood zones in the targeted spray area. RTI’s
2008 End of Spray Report states that all of the bed nets were distributed by the end of the fiscal
year. However, RTI’s internal records show that 649 nets were on hand at the end of the
distribution phase in 2008 but were not carried forward as the beginning balance for 2009.
Although some RTI staff speculated that the warehouse manager may have stolen the bed nets
before fleeing the country, RTI management officials stated that they were not aware of any
theft. Nevertheless, the whereabouts of the 649 bed nets remained unknown.




                                             10 

There were more discrepancies between RTI’s distribution reports, inventory records, and
physical counts as of September 30, 2009. The distribution reports indicated that 8,334 bed
nets should have been on hand, while the inventory stock card reported an inventory of 7,921
nets, and the audit team’s physical count on September 22, 2010 revealed 8,112 nets. The
initial physical count totaled only 7,841 nets, which was 80 nets short of the total shown on the
inventory stock card. The warehouse manager attempted to deceive the audit team by
revealing exactly 80 bed nets from a back room when there were actually 272 more bed nets
(pictured below). These 272 nets were stored separately from the other inventory and were of a
different brand than the ones RTI was distributing at the time. The warehouse manager could
not provide a valid explanation for the segregated nets. In addition, a physical count of
insecticides showed a discrepancy of 15 packets.




    Bed nets found in the back room and transferred to the main room of RTI’s warehouse.
    (Photo by RIG/Dakar, September 22, 2010)

RTI’s inventory records for bed nets, insecticides, and other commodities such as boots and
masks were disorganized and difficult to track. RTI workers kept handwritten records of
inventory received and distributed, and the records sometimes were not legible, chronological,
or separated by item. RTI did not utilize an electronic inventory management system. Although
RTI made some improvements in tracking inventory in 2009, the organization’s system still
needs to be improved.

Furthermore, RTI’s inventory of 8,112 bed nets had been stored at RTI’s warehouse for almost
18 months (since May 2009). In this particular situation, RTI was told by the Ministry of Health
that the Ministry would distribute these bed nets by October 2010. Yet most of these bed nets
were treated with an insecticide that is less effective in the southern part of Benin5 and is no

5
  According to a study supported by PMI and Bill and Melinda Gates, “Insecticide Resistance Status in
Anopheles Gambiae in Southern Benin,” Malaria Journal 2010.
(http://www.malariajournal.com/content/9/1/83).



                                                 11 

longer procured through PMI. Resistance to this kind of insecticide has not been reported in
other parts of Benin.

The weaknesses in the process for tracking and managing inventory occurred partly because
RTI employees did not receive any formal training on inventory management until September
2009, almost 2 years after the program’s inception. RTI also did not provide standard tools or
templates for field offices to apply best practices in inventory management. The field office was
creating and modifying inventory management procedures as needed.

An inventory management process that is disorganized may result in missing and unaccounted-
for items, as well as in vulnerability to theft and diversion. In addition, allowing bed nets to sit
undistributed to beneficiaries hampers the achievement of program objectives. Therefore, this
audit makes the following recommendations:

   Recommendation 7. We recommend that USAID/Benin require Research Triangle
   Institute to develop and implement procedures to improve inventory tracking processes,
   including training their logistics officers and warehouse managers on the best practices
   in inventory management.

   Recommendation 8. We recommend that USAID/Benin require Research Triangle
   Institute to collaborate with the Ministry of Health to ensure distribution of the 8,112 nets
   that are stored in Research Triangle Institute’s warehouse to regions where the nets are
   known to be more effective in preventing malaria.

Bed Nets Were Missing, Diverted,
and Sold for Profit

As stated earlier, the GAO publication Standards for Internal Control in the Federal
Government, pages 14 and 15, states that an agency must establish physical control to secure
and safeguard vulnerable assets. The publication also states that transactions should be
recorded promptly to maintain their relevance and value to management in controlling
operations and making decisions. Not following that guidance led to numerous problems with
the distribution and sales of bed nets, as described below.

Nets Missing or Unaccounted For. PSI was responsible for transporting bed nets from about
30 health zones to approximately 640 health facilities throughout the country. The health
facilities were to give the nets free of charge to pregnant women and to children under 5.
Through the use of contracted transporters, PSI delivered 492,455 nets in FY 2009 and 507,911
nets in FY 2010 (making two distributions each year). USAID and PSI officials reported several
problems associated with these deliveries.

	 In the commune of Sakete, the health zone coordinator reported 250 nets missing. In his
   letter dated July 12, 2010, he claims that he never received them, yet a signed receipt
   shows that the nets were delivered.

	 At the Thio Health Center in Glazoue, 192 nets were missing from the center’s inventory
   records.

According to PSI and USAID, nets were missing at other facilities, and discrepancies occurred
during each of PSI’s four major deliveries in 2009 and 2010. Also, according to USAID officials,


                                              12 

bed nets have been appearing in Benin’s public markets. For example, one USAID official
found PMI-funded nets in the markets of Bohicon and Parakou in July and August 2010. He
saw from the packages that the nets were funded by USAID. Sellers confirmed that they could
supply thousands of nets on request.

Free Nets Not Distributed to Intended Beneficiaries. PSI has reported that some facilities
were not distributing nets to qualified beneficiaries. Some possible explanations include the
following: (1) health facilities were poorly supervised, (2) the National Malaria Control Program
had not authorized the facilities to begin the distribution, (3) the bed nets were part of a kit that
was not ready to be distributed, or (4) the bed nets were being intentionally retained for personal
gain.

Sales of Social Marketing Nets for Profit. PSI has a social marketing program that is
designed to provide subsidized bed nets, as well as other health items, through sales points in
the private sector to targeted rural areas. This program has been extremely popular because of
high demand for low-priced bed nets in targeted communities. Some of the sales points have
taken advantage of this opportunity by selling the nets outside the targeted areas at prices that
exceed the agreed-on CFA 1,000 ($2.13).

For example, in early 2009, a PSI distributor was found selling nets for CFA 2,000 ($4.26) in a
nontargeted area of Cotonou rather than shipping and selling the nets to sales points in the
northern commune of Malanville, a targeted community. He had sold about 60 nets before
being discovered by a PSI employee.

Although 8 of Benin’s 12 departments were included in the social marketing program, problems
occurred primarily in Benin’s major cities—Cotonou, Porto Novo, and Parakou. Estimating the
frequency of this problem is difficult, but PSI’s sales and promotion manager judged that about
one-third of the more than 100 sales points did not always comply with the agreed-on prices.
PSI attempted to mitigate the problem by being more selective in choosing sales points and by
closely supervising these sales points.

Overcharging also occurred higher on the distribution chain. Distributors have complained that
the cost of shipping nets to remote, hard-to-reach locations of Benin, particularly during the
rainy season, makes the deliveries unprofitable. Therefore, one distributor was charging
retailers a price that exceeded the agreed-on price of CFA 1,000.

All the problems with distribution and sales of bed nets reflect inadequate monitoring and
evaluation. Site visits are an important tool in monitoring an activity’s progress. They allow
USAID to observe the net distribution process more closely, identify data quality issues, and
suggest corrective actions. Members of the health team explained that they did not have
enough time to conduct many site visits. For example, PSI’s agreement officer’s technical
representative estimated that he had conducted only four or five site visits since joining the team
in June 2008, but some of these visits were undocumented, and none of them were specifically
related to PMI activities. Furthermore, the health team did not have a standard format for
documenting visits.

Inadequate communication among USAID, its partners, and the Ministry of Health further
contributed to the problems explained above. While the health team and PSI have expressed
great interest in resolving these problems and have notified the Office of Inspector General’s
Office of Investigation of the cases of potential fraud, the cases were not consistently well
researched, documented, or reported to know the extent of the problems.


                                               13 

Examples such as those above demonstrate that bed nets—and other donor-funded health
items—can easily be found in Benin’s public markets. Diversion of commodities is occurring
throughout Africa, but there is confusion about what can be done to stop it. Although the exact
cause of missing nets varies from case to case, additional monitoring and supervision by
USAID, its partners, and the Ministry of Health would minimize the number of occurrences. In
fact, most of the weaknesses observed throughout this report can be attributed in part to
inadequate monitoring.

      Recommendation 9. We recommend that USAID/Benin’s health team improve its
      monitoring of bed net distributions by (1) increasing site visits to health facilities and bed
      net sales points, and (2) developing a site visit template that specifically identifies areas
      to review during visits.

      Recommendation 10. We recommend that USAID/Benin, in conjunction with its
      partners, develop and implement a uniform system for documenting and communicating
      cases of missing or diverted bed nets.

Health Ministry’s Disciplinary Action
Against Hospital Deprived
Beneficiaries of Bed Nets and Drugs
The overall PMI goal is to reduce malaria-related mortality by 50 percent after 3 years of full
implementation. To achieve this goal, PMI must reach 85 percent coverage of the most
vulnerable groups (children under 5 and pregnant women), with proven preventive and
treatment options. USAID/Benin therefore must be proactive and aggressive at reaching
targeted beneficiaries.

However, at Abomey regional hospital, antimalarial commodities were not being distributed to
beneficiaries. Health-care workers at the hospital stated that the pregnant women and mothers
who participated in PMI-funded outreach trainings there often requested bed nets for
themselves and their qualifying children, but that no bed nets had been available at the hospital
since 2009. Abomey is a large regional hospital where demand for PMI commodities is high.

Hospital officials explained that a Ministry of Health policy requires all health facilities to deposit
proceeds from antimalarial drug sales into a regional bank account.6 The ministry, to ensure the
sustainability of the program, uses these proceeds to purchase antimalarial drugs. Failure to
adhere to the policy results in ineligibility to receive antimalarial commodities in the future.

In 2009, instead of depositing proceeds from the sale of antimalarial drugs into the designated
bank account, the Abomey regional hospital used the funds for other hospital needs, violating
the Ministry of Health policy. Consequently, the regional health zone director removed the
hospital from the PMI distribution list, and the hospital had not been provided with any
commodities for over a year. As a result, although demand was high, the facility was not able to
provide antimalarial prevention and treatment commodities to its patients.

The disciplinary action taken against the hospital, while encouraging fiscal responsibility,
ultimately penalizes the beneficiaries rather than the hospital. The beneficiaries may not have

6
    No similar requirement applies to bed nets, which are given away free at health facilities.


                                                     14 

other means to obtain the drugs or bed nets. Additionally, the Ministry of Health policy may
have prevented Benin from meeting countrywide PMI goals.

Although the mission agreed that the policy may be too strict and punishes innocent
beneficiaries, the mission does not have control over the Ministry of Health’s decisions. The
mission sent a memo to the ministry in August 2010 requesting greater authority and control
over disciplinary actions taken against hospitals. With greater control over enforcement, the
mission can ensure that beneficiaries are not affected by disciplinary actions taken against the
hospitals and will be provided with antimalarial commodities. However, the ministry may not
accept the mission’s proposal. In the interim, the mission should address the needs of the
beneficiaries to meet its overall PMI objectives.

   Recommendation 11. We recommend that USAID/Benin work with the Ministry of
   Health to develop a strategy for reinstating the Abomey regional hospital into
   the artemisinin-based combination therapy (ACT) treatments distribution network.

Some Main PMI Indicators Were Not
Included in Monitoring Plans
According to ADS 203.3.2, “Performance Management,” managing performance involves the
systematic process of monitoring the achievements of program operations and collecting and
analyzing performance information to track progress toward planned results. ADS 203.3.8.3,
“Performance Report Indicators,” states that the use of standard indicators facilitates the
aggregation of results across operating units worldwide and improves the U.S. Government’s
ability to report on how U.S. foreign assistance resources are being used. However, the audit
determined that the mission did not include in its PMP performance indicators related to malaria
and that implementing partners were not required to report on PMI indicators.

Some PMI Indicators Were Not Included in the Performance Management Plan. The health
team’s PMP was initially established in December 2005 to monitor the Integrated Family Health
program’s 5-year strategy (2006-2011). Because the program’s mandate is broad, no disease-
specific indicators were included in the PMP. The PMP has been updated several times since
its creation, including in 2008, after Benin was selected as a PMI country. However, although
the $21 million in PMI funding for FY 2010 represented about 66 percent of the health program
portfolio’s funding, the 13 performance indicators related to malaria accounted for only 16
percent of the 79 total indicators included in the PMP for the mission’s health portfolio. Several
important indicators including the number of structures sprayed with insecticide, number of
people protected by spraying, and number of people reached with malaria prevention and
treatment messages were not, but should be, included in the mission’s PMP.

The omission of these indicators, and others, occurred because the health team received PMP
guidance from Washington in April 2009 that did not require their inclusion. As a result,
USAID/Benin did not include several key indicators in its PMP, even though it was keeping track
of them separately. Nonetheless, the mission agreed that additional malaria indicators should
be added to its FY 2011 PMP for monitoring the new 5-year strategy, which focuses more on
malaria.

Partners Were Not Required to Report on PMI Indicators. Although PMI implementing
partners were tracking and reporting their results, many of these partners were not formally




                                             15 

required to do so. Specific requirements to report on indicators were not in the partners’
agreements, task orders, work plans, monitoring and evaluation plans, or PMPs.

According to mission staff, the health team inadvertently omitted the requirements from key
documents for two reasons: the team focused on priorities other than the PMP, and the team
was understaffed. Although the current team consists of six individuals, the 2008 health team
had only two technical staff and an administrative assistant.

As a result, the PMP was incomplete. Without clearly defined expectations of achievement in a
PMP, there is a risk of miscommunication, particularly in this case where many of the health
team’s activities—including RTI’s spraying efforts, DELIVER, and SPS—were managed from
Washington.

   Recommendation 12. We recommend that USAID/Benin’s health team update its
   performance management plan to include important malaria indicators.

   Recommendation 13. We recommend that USAID/Benin update its agreements, work
   plans, and other documents with its implementing partners to require reporting on
   relevant malaria indicators and other performance measures.




                                           16 

EVALUATION OF MANAGEMENT
COMMENTS
USAID/Benin agreed with all 13 recommendations in the draft report. Based on actions taken by
the mission and supporting documentation provided, final action has been taken on
recommendations 8 and 9; and management decisions have been reached on
recommendations 1, 2, 3, 4, 5, 6, 7, 10, 11, 12, and 13. Our evaluation of management
comments is shown below:

Recommendation 1. USAID/Benin agreed with the recommendation. RTI will develop revised
procedures for data gathering, tallying of results, and reporting of activities by June 30, 2011.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 2. USAID/Benin agreed with the recommendation and is working with the
Washington-based contracting officer’s technical representative (COTR) and RTI to ensure
indicator definitions used correspond correctly to PMI indicator guidance. The IRS program
COTR and USAID/Benin will jointly issue a communication to RTI reinforcing PMI-required IRS
definitions by February 15, 2011. Accordingly, a management decision has been reached on
this recommendation.

Recommendation 3. USAID/Benin agreed with the recommendation and will task RTI to revise
existing standard operating procedures for information management. USAID/Benin, in
coordination with others, will also increase the frequency of spot checks and site visits. In
addition, a data quality assessment will be completed by the third quarter of fiscal year 2011.
The target completion date for actions on this recommendation is July 31, 2011. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 4. USAID/Benin agreed with the recommendation and will work with the
Washington-based COTR and collaborate with the MOH and the Central Medical Stores (1) to
develop and implement protocols for the verification of inventories prior to approval of orders of
antimalarial drugs and commodities and (2) to intensify the use of the existing software to track
availability of stocks at health facilities. The target completion date of the above is June 30,
2011. Accordingly, a management decision has been reached on this recommendation.

Recommendation 5. USAID/Benin agreed with the recommendation and will develop with
others a set of standard protocols to be followed in the storage of antimalarial drugs at different
levels of the health system. The target completion date for this action is June 30, 2011.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 6. USAID/Benin agreed with the recommendation and will write a letter to
the Minister of Health advocating for the need to develop and implement a procedure to collect,
transport, and destroy expired drugs in storage in an environmentally friendly manner. The
target completion date for this action is May 31, 2011. Accordingly, a management decision
has been reached on this recommendation.

Recommendation 7. USAID/Benin agreed with the recommendation and will ensure that RTI
develops and implements inventory tracking processes and introduces revised tools, having



                                              17 

trained logistics officers and warehouse managers on them, prior to the start of spraying
operations in Atacora Department. The target completion date for this action is June 30, 2011.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 8. USAID/Benin agreed with the recommendation and provided
documentation showing that RTI communicated to the Ministry of Health the availability of the
nets in RTI’s warehouse for use in the next distribution campaign, scheduled for February-
March 2011. The documentation further shows that MOH has taken possession of the bed nets
and programmed them for distribution. This action constitutes final action on this
recommendation.

Recommendation 9. USAID/Benin agreed with the recommendation and has taken steps to
ensure that AOTR/COTRs and project activity managers conduct regular site visits. Since the
first quarter of fiscal year 2011, the number of site visits has increased, and the plan is to
conduct quarterly visits to each implementing partner. The mission has provided a site visit
template that will be used during site visits. This action constitutes final action on this
recommendation.

Recommendation 10. USAID/Benin agreed with the recommendation for bed nets purchased
with U.S. Government funds. The mission will require the relevant implementing partner to
submit a written plan of action for how nets will be tracked for program management verification.
In the event of missing or diverted bed nets, the implementing partner will document missing
items and work with local authorities to track and remedy the diversion. This system will be
communicated in writing to all affected implementing partners by March 15, 2011. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 11. USAID/Benin agreed with this recommendation. The mission will work
with the National Malaria Control Program and the management of the Abomey regional
hospital to re-integrate the hospital into the ACT distribution network. The target completion
date for this action is March 31, 2011. Accordingly, a management decision has been reached
on this recommendation.

Recommendation 12. USAID/Benin agreed with the recommendation. The mission is already
working on revising its overall strategic framework for its health activities and will begin selecting
indicators for each level and each activity. The mission expects to develop a new health PMP
by June 30, 2011. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 13. USAID/Benin agreed with the recommendation. All current implementing
partner documents will be updated to reflect the relevant indicators and performance measures,
and new malaria activities will include relevant malaria indicators in the award and original
performance documents. For all current activities, the formal modification of project documents
will be completed. The target completion date for this action is June 30, 2011. Accordingly, a
management decision has been reached on this recommendation.




                                               18 

                                                                                               Appendix I



SCOPE AND METHODOLOGY
Scope

We conducted this audit in accordance with generally accepted government auditing
standards.7 Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Benin’s program to implement the
President’s Malaria Initiative achieved its main goals of preventing and treating malaria. To
implement the program, the mission worked with about 13 prime partners. Those selected for
audit are shown in the following table.

                                             Audited Programs

    Implementing                                 Program                          Agreement/Task Order
    Partner                                                                        Amount      Dates
                                                                                  ($ million)
    John Snow Inc.            The DELIVER program procures bed nets,                  9.8     4/2008–
                              ACTs, sulfadoxine-pyrimethamine (SP) for             (through    9/2015
                              pregnant women, rapid diagnostic tests, severe       9/2010)
                              malaria treatment kits, microscopes and
                              reagents and transports them to health facilities
    Research Triangle         The IRS program sprays households in                  7.7       1/2008–
    Institute International   selected areas                                      (through    9/2015
    (RTI)                                                                          9/2010)
    Population Services       The ITN program transports ITNs from health           3.2       7/2008–
    International (PSI)       depots to health facilities; procures and                       12/2010
                              distributes ITNs through the private sector; and
                              provides malaria-related information, education,
                              communication,        and      behavior-change
                              communication services
    Management                The Strengthening Pharmaceutical Systems              1.6       9/2008–
    Sciences for Health       (SPS) program trains and provides technical                     1/2011
                              assistance to the National Malaria Control
                              Program, health district commodity managers,
                              and the Central Medical Store’s staff on
                              forecasting, managing supply, and tracking and
                              storing commodities

The audit focused on PMI activities occurring in FYs 2009 and 2010. USAID/Benin’s FY 2008,
2009, and 2010 funding for PMI totaled $13.9 million, $13.8 million, and $21 million respectively.
PMI activities expended $9.6 million during FY 2009 and $16.2 million during FY 2010.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the program and ensure that its implementing partners were providing
adequate oversight of program activities. The assessment included controls related to whether

7
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                     19 

                                                                                        Appendix I


USAID had (1) reviewed progress and financial reports submitted by the implementing partners,
(2) conducted and documented periodic meetings with the implementing partners, (3) performed
documented visits to the activity sites, and (4) developed and implemented policies and
procedures to safeguard the assets and resources of the activities. Additionally, the auditors
examined the mission’s fiscal year 2009 annual self-assessment of management controls—
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 19828—to determine whether the assessment cited any relevant weaknesses.

Audit fieldwork was performed at USAID/Benin as well as at the implementers’ offices. The
audit team made field trips to 20 facilities from September 20 to October 8, 2010, in Cotonou
and other cities in Benin.

Methodology
To answer the audit objective, we reviewed the PMI indicators reported by USAID/Benin in
FY 2009 as well as activities implemented by selected implementing partners. We met with the
PMI team in Benin to gain an understanding of the program activities and also reviewed
available agreements, progress reports, and implementing partner work plans. We reviewed
applicable laws and regulations and USAID policies and procedures pertaining to
USAID/Benin’s PMI program, including Automated Directives System guidance, the
USAID/Benin malaria operational plans for FYs 2009 and 2010, and the Benin 5-year strategy.
During site visits, we interviewed implementing partner staff, service providers, spray operators,
beneficiaries, and officials from the Government of Benin’s Ministry of Health. We also verified
reported results, performed inventory counts on antimalarial drug and net commodities, and
checked to see whether activities were being monitored and evaluated as required.

The audit involved (1) validating the partners’ reported results under selected key performance
indicators and (2) conducting site visits to selected activities. In validating the program’s
reported results, the audit team focused on the data reported on the following four performance
indicators because these indicators were the ones that relate to the activities selected for audit:

     Number of houses sprayed with IRS with U.S. Government support
     Number of insecticide-treated nets purchased with U.S. funds
     Number of nets distributed that were purchased with U.S. funds
     Number of artemisinin-based combination therapy treatments purchased and distributed
      with U.S. Government support

The scope of our testing was limited to validating the data reported on these indicators for
judgmentally selected sites: 20 facilities, which included the port, spraying sites, warehouses,
and health centers in 14 of 77 communes, or 5 of 12 departments in Benin: (1) Littoral;
(2) Oueme; (3) Mono, (4) Collines, and (5) Zou. The 20 sites chosen for review were located in
the regions where PMI programs were being implemented, were logistically feasible with the
available resources, and included both large and small medical facilities. Since this testing was
based on a judgmental―not statistical―sample of indicators and sites, the results and overall
conclusions related to this analysis were limited to the items tested and could not be projected
to the entire audit universe. However, we believe that our work provides a reasonable basis for
our conclusions.


8
    Public Law 97–255, as codified in 31 U.S.C. 3512.


                                                  20 

                                                                                         Appendix II



MANAGEMENT COMMENTS
To:            Gerard Custer, Regional Inspector General, Dakar, Senegal

From:          Kevin Armstrong, Mission Director, USAID/Benin /s/

Date:          January 25, 2010

Subject:       Audit of USAID/Benin’s Implementation of the President’s Malaria Initiative (Audit
               Report No. 7-680-11-00X-P) – December 2010


This memorandum transmits USAID/Benin’s management response on the subject audit report
(Audit Report No. 7-680-11-00X-P) regarding USAID/Benin’s malaria activities funded by the
President’s Malaria Initiative (PMI). We believe that we have made significant progress towards
reducing the malaria burden in Benin. In concert with our partners and the Government of
Benin’s National Malaria Control Program (NMCP), we have increased access to life-saving
malaria drugs, provided bed nets and indoor residual spraying for malaria prevention, and
helped local capacity to manage and sustain activities in a transparent manner. However, we
acknowledge that there are significant challenges in implementing this type of program and will
continue to work on improving the malaria information system, and the management of the
supply chain of malaria drugs, commodities and other resources provided. We appreciate the
RIG’s inputs towards the improvement of the implementation of PMI by USAID/Benin.

Our management responses to the recommendations are presented below:

Recommendation 1. We recommend that USAID/Benin, in conjunction with Research
Triangle Institute (RTI), identify alternative ways in which spray operators can tally results.

Management Comments: USAID/Benin agrees with the recommendation. For this
recommendation and others related to RTI, USAID/Benin will work closely with RTI, the
National Malaria Control Program (NMCP), and partners to implement operational
improvements in various aspects of data-gathering, tallying of results and reporting of activities
implemented.

RTI will be tasked with developing the revised procedures for spraying operators with a target
completion date of June 30, 2011, before the 2011 spraying campaign starts in Atacora
department.

Recommendation 2. We recommend that USAID/Benin, in consultation with
Research Triangle Institute (RTI), formulate clear definitions of terms and implement internal
controls to ensure that consistent terminology is used in gathering and reporting data on indoor
residual spraying with insecticide.

Management Comments: USAID/Benin agrees with the recommendation, and is working with
the Washington-based COTR and RTI to ensure indicator definitions used in Benin and reported
to PMI in reports and work plans correspond correctly to PMI indicator guidance in the Indoor
Residual Spraying (IRS) training manual and available in the following link:


                                               21 

                                                                                      Appendix II


http://pmi.gov/technical/irs/irs_training.pdf. The IRS Project COTR and USAID/Benin will jointly
issue a communication to RTI reinforcing PMI-required IRS definitions of terms and reporting
requirements and will complete this action by February 15, 2011.

Recommendation 3. We recommend that USAID/Benin develop and implement procedures to
validate insecticide-spraying data periodically through spot checks.

Management Comments: USAID/Benin agrees with the recommendation, and will task RTI to
revise existing standard operating procedures for information management, which will include
adopting an efficient data flow system that will carry accurate and timely information from the
spraying operator to the zonal level with minimal errors. Data collection and entry tools that
promote efficiency and quality at all levels of the information system, enabling proper
performance tracking, will be used.

USAID/Benin, in collaboration with the NMCP, RTI and other partners, will also increase the
frequency of spot checks and site visits to verify that forms are used correctly, and data are
accurately entered. Cross-checking and data verification will be conducted at appropriate
intervals during the IRS campaign. In addition, a data quality assessment will be completed by
USAID during the third quarter of fiscal year 2011. The target completion date of this action is
July 31, 2011.

Recommendation 4. We recommend that USAID/Benin, through the Ministry of Health,
strengthen controls to ensure that: (1) facilities’ drug inventories and drug consumption are
verified before drug requests are approved and delivered, and (2) mechanisms are in place to
track drugs that are out of stock or will be out of stock to ensure timely replacement.

Management Comments: USAID/Benin agrees with the recommendation. To clarify,
USAID/Benin consigns and transfers ownership of most malaria commodities to the host
government, NGOs or other in-country partners. The in-country supply chains for these
commodities vary and are very complex, especially when a whole country with under-developed
systems and infrastructure is concerned. However, USAID/Benin will continue to work with the
host country to develop capacity and strengthen the existing supply chain and supervision
mechanisms. USAID/Benin, through its partners and the GOB, will verify the proper
management of commodities by employing various tools and methods, including the existing
end-use verification tool, regional and national inventory checks, and supervision tools.

The recommendation highlights the need for training and supervision on the rational use of
antimalarial drugs, to which end PMI contributes significantly in all PMI-supported countries.
Benin, like many developing countries, lacks a robust supervision component in its health
programs. This is the reason behind the weak pharmaceutical management observed at the
health facilities the auditors visited.

USAID/Benin will work with the Washington-based COTR of Strengthening Pharmaceutical
Systems/Management Sciences for Health (SPS/MSH) and collaborate with the MOH and the
Central Medical Stores (CAME) to develop and implement protocols for the verification of
inventories prior to approval of orders of anti-malarial drugs and commodities and to intensify
the use of the existing software to track availability of stocks at health facility level.

The target completion date of the above is June 30, 2011.




                                             22 

                                                                                          Appendix II


Recommendation 5. We recommend that USAID/Benin, through the Ministry of Health, take
the appropriate steps to strengthen controls to ensure the proper storage of antimalarial drugs
at all facilities.

Management Comments: USAID/Benin agrees with the recommendation and will jointly
develop with the NMCP, CAME and the Direction of Pharmaceutical Services, Medicines and
Diagnostics of the MOH, a set of standard protocols to be followed in the storage of antimalarial
drugs at different levels of the health system. The target completion date of this action is June
30, 2011.

Recommendation 6. We recommend that USAID/Benin communicate to the Ministry of Health
the need to (1) implement a plan to destroy the expired drugs currently in storage, and
(2)implement and effectively communicate to all affected facilities a procedure for storage,
pickup, and destruction of expired drugs.

Management Comments: USAID/Benin agrees with the recommendation and will write a letter
to the Minister of Health advocating for the need to develop and implement a plan to collect,
transport and destroy expired drugs in storage in an environmentally-friendly manner. The
target completion date of this action is May 31, 2011.

Recommendation 7. We recommend that USAID/Benin require Research Triangle Institute to
develop and implement procedures to improve inventory tracking processes, including training
their logistics officers and warehouse managers on the revised procedures and best practices in
inventory management.

Management Comments: USAID/Benin agrees with the recommendation and will ensure that
RTI develop and implement inventory tracking processes and introduce revised tools, with
logistics officers and warehouse managers trained on them, prior to the start of spray operations
in Atacora department. This will be complementary to the responses to recommendations 1 and
3. The target completion date of this action is June 30, 2011.

Recommendation 8. We recommend that USAID/Benin require Research Triangle Institute to
collaborate with the Ministry of Health to ensure distribution of the 8,334 nets that are stored in
the Research Triangle Institute’s warehouse to regions where the nets are known to be more
effective in preventing malaria.

Management Comments: USAID/Benin agrees with the recommendation. In December 2010,
RTI communicated to the Ministry of Health the availability of the nets in RTI’s warehouse for
use in the next Long-Lasting Insecticide-Impregnated Net (LLIN) distribution campaign that is
currently scheduled for February-March 2011 (Annex 1). The MOH has taken possession of the
bed nets and have programmed them for distribution (Annex 2). The effectiveness of the bed
nets is not deemed an issue: the brand of the bed nets is Olyset, which uses an insecticide to
which the local vector, Anopheles gambiae, has shown resistance. This was the conclusion of
entomological studies recently completed in Benin (Annex 3). The principal benefit from Olyset
bed nets in Benin is their role as a physical barrier against mosquito bites.

The Mission requests closure of this recommendation.

Recommendation 9. We recommend that USAID/Benin’s health team improve its monitoring
of bed net distributions by (1) increasing site visits to health facilities and bed net sales points,
and (2) developing a site visit template which specifically identifies areas to review during visits.


                                               23 

                                                                                        Appendix II


Management Comments: USAID/Benin agrees with the recommendation and acknowledges
that site visits are an important aspect in monitoring the progress and performance of malaria
activities. It should be noted that during the period covered by the audit, the Commodities
Logistics Specialist conducted nine visits to health facilities and sales points to monitor the
availability and management of PMI commodities, including bed nets. Another ten site visits
were completed by other activity managers and COTRs during fiscal year 2010. USAID/Benin
has also taken steps to ensure that AOTR/COTRs and project activity managers conduct
regular site visits and that the results of these visits are duly documented in trip reports. Since
the first quarter of fiscal year 2011, the number of site visits has increased, and the plan is to
conduct a minimum of quarterly visits to each implementing partner. The Family Health Team
has also developed a site visit template (Annex 4) and quarterly activity procedures that include
planning of site visits by AOTR/COTRs and project activity managers.

The Mission requests closure of this recommendation.

Recommendation 10. We recommend that USAID/Benin, in conjunction with its partners,
develop and implement a uniform system for documenting and communicating cases of missing
or diverted bed nets.

Management Comments: USAID/Benin agrees with the recommendation, but only for bed
nets purchased with USG funds. For this subset of nets that are distributed in Benin, the
Mission will require the relevant implementing partner to submit a written plan of action for how
nets will be tracked, accounted for and documented for program management verification. In
the event of missing or diverted bed nets, the implementing partner will document with local
authorities efforts to track and remedy the diversion. This plan will also include procedures for
reporting and following-up on missing or diverted bed nets to USAID. This system will be
communicated in writing to all relevant implementing partners by March 15, 2011.

Recommendation 11. We recommend that USAID/Benin work with the Ministry of Health to
develop a strategy for reinstating the Abomey regional hospital into the artemisinin-based
combination therapy (ACT) treatments distribution system.

Management Comments: USAID/Benin agrees with this recommendation. The Family Health
Team will work with the NMCP and the management of the Abomey regional hospital to re­
integrate the hospital into the ACT distribution network. The target completion date of this
action is March 31, 2011.

Recommendation 12. We recommend that USAID/Benin’s health team update its performance
management plan to include important malaria indicators.

Management Comments: USAID/Benin agrees with the recommendation. The Mission had
already planned to update its Performance Monitoring Plan (PMP) for the Family Health
Program in fiscal year 2011 to include appropriate outcome and impact level indicators for
malaria and other elements of its portfolio along with a calendar and defined methodologies for
monitoring these indicators and evaluating overall performance. The Family Health Team is
already working on revising its overall strategic framework for its health activities and will begin
selecting indictors for each level and each activity once the framework is finished. The entire
process to develop a new health PMP, which includes all the malaria activities conducted by the
Mission, will be completed by June 30, 2011.




                                              24 

                                                                                      Appendix II


Recommendation 13. We recommend that USAID/Benin update its agreements, work plans
and other documents with its implementing partners to require reporting on relevant malaria
indicators and other performance measures.

Management Comments: USAID/Benin agrees with the recommendation. It should be noted
that agreements with our partners did include requirements to track all relevant malaria
indicators and other performance measures. The Mission acknowledges that some documents
were not up to date at the time of the audit but this does not mean that implementing partners
were not required to report on their malaria activities. Our implementing partners were required
to report on any and all indicators listed in both their agreements, and in modifications to their
agreement. Due to additions to or changes in the formulation of common indicators from
PMI/Washington and amendments to activities in the Malaria Operational Plan, there were
changes in the indicators to be tracked over the life of PMI activities. These changes were
discussed with implementing partners but project documents were not formally revised to
include these changes. As noted in the response to recommendation 12, the Mission is in the
process of revising the PMP to fully track health activities, including malaria. As part of this
process, all current implementing partner documents will be updated to reflect the relevant
indicators and performance measures, and new malaria activities will include relevant malaria
indicators in the award and original performance documents. For all current activities, the formal
modification of project documents will be completed by May 31, 2011. The target completion
date of this action is June 30, 2011.




                                              25 

U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
